Department of Health and Human Services

        OFFICE OF
   INSPECTOR GENERAL




     Oversight of Tissue Banking




                      JANUARY 2001
                      OEI-01-00-00441
                          OFFICE OF INSPECTOR GENERAL

The mission of the Office of Inspector General (OIG), as mandated by Public Law 95-452, is to
protect the integrity of the Department of Health and Human Services programs as well as the
health and welfare of beneficiaries served by them. This statutory mission is carried out through a
nationwide program of audits, investigations, inspections, sanctions, and fraud alerts. The
Inspector General informs the Secretary of program and management problems and recommends
legislative, regulatory, and operational approaches to correct them.

                            Office of Evaluation and Inspections

The Office of Evaluation and Inspections (OEI) is one of several components of the Office of
Inspector General. It conducts short-term management and program evaluations (called
inspections) that focus on issues of concern to the Department, the Congress, and the public. The
inspection reports provide findings and recommendations on the efficiency, vulnerability, and
effectiveness of departmental programs.

OEI's Boston Office prepared this report under the direction of Mark R. Yessian, Ph.D., Regional
Inspector General. Principal OEI staff included:

BOSTON                                                                         HEADQUARTERS

Russell W. Hereford, Ph.D., Project Leader                            Alan Levine, Program Specialist

Elizabeth A. Robboy, M.M.H.S, Program Analyst

Maria E. Maddaloni, M.A., Program Analyst

China D. Eng, M.P.H., Program Analyst





         To obtain copies of this report, please call the Boston Regional Office at 617-565-1050.
          Reports are also available on the World Wide Web at our home page address:

                                     http://www.hhs.gov/oig/oei
                   EXECUTIVE                          SUMMARY

PURPOSE
        To provide a profile of the current external oversight system for tissue banking, and to
        identify limitations in that system.

BACKGROUND
        Human tissue is an important resource for medical treatment. For example, it is used in
        burn treatment, reconstructive surgery, cancer care, and heart valve replacement.

        Tissue from one donor can be processed into many forms and used to treat many people.
        The exact number of donors is not known, but it is growing. In 1999, more than 20,000
        donors provided cadaveric tissue, up from perhaps 6,000 donors in 1994. It is estimated
        that tissue banks distributed more than 750,000 allografts for transplantation in 1999.

        Human tissue can transmit disease. In the early 1990's two events raised major concerns.
        First, HIV was transmitted from one infected donor to several recipients of organs and
        unprocessed tissues. Second, investigators from the Food and Drug Administration
        (FDA) found instances of domestic suppliers accepting foreign tissue that had not been
        tested or screened; in one case the FDA found tissue that tested positive for Hepatitis B.

        These concerns led FDA to issue an interim final rule in December 1993. FDA modified
        this regulation and reissued it as a new rule, effective in January 1998. It requires that
        tissue banks screen and test donors and that they maintain the appropriate records. The
        rule also provides for FDA inspections of tissue banks and retention, recall, and
        destruction of tissue that doesn’t comply with these requirements.

        This report responds to a request from the Secretary of Health and Human Services,
        asking the Office of Inspector General to examine the oversight system for tissue banking.
        We analyzed available data related to tissue banking, and we reviewed regulations, laws,
        and standards. We interviewed staff from FDA, from 30 tissue banks, and from
        associations representing various sectors of the tissue banking industry.

        In this report, we use the term “tissue banks” to refer to entities involved in procuring,
        processing, storing, and distributing tissue. We use the term “tissue” to refer to skin, heart
        valves, and musculoskeletal tissue such as bone, cartilage, ligaments, and tendons. Our
        report does not address eyes and reproductive tissue.

PROFILE OF TISSUE BANKING OVERSIGHT
        Oversight of tissue banking takes place at three levels:

C       The Food and Drug Administration focuses on preventing transmission of


Oversight of Tissue Banking                       i                                   OEI-01-00-00441
        communicable disease by requiring donor screening and testing. FDA has conducted 188
        inspections of 118 tissue banks since 1993. The agency has proposed two regulations and
        is developing a third that would expand its oversight of tissue banking. These regulations
        would require registration of all tissue banks, expanded screening and testing, and use of
        good tissue practices, akin to good manufacturing practices.

C	      The American Association of Tissue Banks (AATB) conducts a voluntary accreditation
        program. While AATB currently accredits 58 tissue banks, we identified another 90 that
        are not accredited. Accreditation addresses not only donor screening and testing
        practices, but operational and organizational aspects, such as qualifications of tissue bank
        personnel and banks’ safety practices, equipment testing, facilities, labeling, and quality
        assurance programs.

C	      New York and Florida are the only two States to license and inspect tissue banks. In
        addition to screening and testing, these States require banks to report adverse incidents.
        They also address areas such as tissue procurement processes, tracking practices,
        emergency procedures, equipment standards, conflict of interest, community involvement,
        labeling standards, laboratory testing, and disposition of unused tissue. A few States,
        including California, Georgia, and Maryland, require tissue banks to be licensed by the
        State.

LIMITATIONS IN TISSUE BANKING OVERSIGHT
        No new cases of disease transmission through human tissue have been identified since the
        FDA’s 1993 regulation. This absence of new cases points to significant strengths and
        accomplishments in the current system which has focused on preventing the spread of
        communicable disease. Nevertheless, in the course of this limited inquiry, we identified
        situations that show the need for continued vigilance and monitoring. For example, FDA
        inspectors have found serious deficiencies in tissue banks’ screening and testing practices.
        Banks have failed to meet basic standards of the AATB and been denied accreditation.
        States have received notification of adverse incidents involving tissue.

        The rapid development of the tissue banking field means that traditional oversight methods
        may not keep pace with growth and changes in the industry. Consequently, thoughtful
        consideration needs to be given to the nature of any oversight approach.

        Below, we outline limitations and vulnerabilities in current approaches, and we offer a
        combination of options that, taken singularly or in combination, could provide a way of
        enhancing oversight of the tissue banking field.

FDA oversight
        Some tissue banks have never been inspected by FDA. We found at least 36 tissue
        banks that have never been inspected, out of 154 tissue establishments that we were able
        to identify. FDA has indicated that regulation of tissue banks is an unfunded mandate, and
        that in order to carry out these inspections, the agency has had to borrow resources


Oversight of Tissue Banking                       ii                                 OEI-01-00-00441
        from other programs, such as blood and plasma.

        FDA lacks a prescribed cycle for reinspection of tissue banks. Of 118 tissue banks
        that FDA has inspected, 68 have been inspected only once. Due to limited resources, the
        agency has had to establish a priority list for followup inspections. The first priority is
        reinspection of firms whose previous inspection was classified as Official Action Indicated,
        the most serious level of deficiency.

        The number and location of tissue banks are unknown. Information is lacking about
        the number of tissue banks in operation and the products they produce and distribute.
        FDA has proposed a regulation to require tissue banks to register and list their products.
        The regulation would address directly this limitation in knowledge about tissue banking.

        The scope of FDA’s current regulation is limited. Because the agency’s current
        regulation focuses on donor screening and testing to prevent transmission of HIV-1 and -
        2 and Hepatitis B and C, other important aspects of tissue bank quality are not monitored.
        Until FDA’s good tissue practices rule is finalized, tissue banks have no external
        requirements for quality and handling of tissue if they are not accredited by AATB or
        licensed by New York or Florida. Of the 154 tissue banks we identified, 67 are neither
        accredited by AATB nor inspected by Florida or New York.

Private accreditation
        Many banks do not seek AATB accreditation. AATB accredits 58 tissue banks.
        However, we identified 90 tissue banks that are not accredited. These banks are under no
        obligation to meet the standards or policies set by the association. For many tissue banks
        there is no real incentive to seek accreditation. There are a number of ways to encourage
        private accreditation of tissue banks. For example, FDA could provide technical advice
        and information that could be used in developing standards. FDA also could consider in
        what areas, if any, the agency could accept accreditation as showing compliance with FDA
        regulations. In such a case, legislation would be needed.

State oversight
        Only two States inspect tissue banks. In many ways, these inspections go beyond FDA
        requirements; yet the inspections are limited to banks that conduct business in Florida and
        New York. Other States could give consideration as to whether they wish to regulate
        tissue banking and, if so, how they would coordinate with other entities to limit
        redundancy and regulatory burden.

Information on supply and availability of tissue
        Concerns about shortages. There is no national system for tracking the availability of
        tissue. Two recent surveys by industry representatives raised concerns that skin may not
        be available when needed for treating burn victims. However, some shortcomings in these
        studies suggest that additional research is warranted to examine the extent and
        implications of shortages of tissues.


Oversight of Tissue Banking                      iii                                OEI-01-00-00441
RECOMMENDATIONS
The Food and Drug Administration should expedite the publication of its
regulatory agenda that requires registration of tissue banks, enhanced donor
suitability screening and testing, and the use of good tissue practices.
        At present, FDA is able to inspect only those banks that it knows about. Requiring
        registration of all tissue banks would ensure that the agency has a comprehensive list of
        tissue banks as a first step in assuring their compliance with standards.

        In addition, many tissue banks are neither accredited by the AATB nor licensed and
        inspected by New York or Florida. Those banks that are not accredited or inspected do
        not have to meet any standards beyond the current FDA minimum requirements that they
        screen and test tissue donors for HIV and hepatitis.

FDA should set a realistic, yet aggressive, date by which it would complete an
initial inspection of all tissue banks.
        This could be accomplished under FDA’s existing regulatory authority. Establishing a
        baseline of information will provide a minimum level of assurance that tissue banks are
        meeting basic public health and safety standards to prevent transmission of communicable
        diseases.

FDA should determine an appropriate minimum cycle for tissue bank inspections.
        This, too, could be accomplished under FDA’s existing regulatory authority. A minimum
        cycle for inspections would help ensure that tissue banks are meeting standards on an
        ongoing basis.

FDA should work with States and with professional associations that have
inspection and accreditation programs to determine in what areas, if any,
oversight activities could be coordinated.
        FDA, the industry, and the States with regulatory programs could benefit from examining
        where standards are in agreement, as well as areas in which standards might conflict.
        Following such an examination, determination could be made of whether formal
        partnership or other arrangements would be appropriate to maximize the effectiveness of
        the oversight process. Such arrangements could require enactment of legislation.

COMMENTS ON THE REPORT
        We received comments on a draft of this report from the Department of Health and
        Human Services. They are supportive of our findings and recommendations. The full text
        is included in Appendix B.

        Our work in tissue banking continues. We will maintain an active watch on how the tissue
        banking community responds to the concerns that we have raised.


Oversight of Tissue Banking                      iv                                  OEI-01-00-00441
                             TABLE OF CONTENTS

EXECUTIVE SUMMARY . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . i


INTRODUCTION . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 1


PROFILE OF OVERSIGHT FOR TISSUE BANKING


          FDA oversight . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 4


          AATB accreditation . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 5


          State regulation . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 5



LIMITATIONS IN TISSUE BANKING OVERSIGHT

          FDA oversight . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 7


          Private accreditation . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 9


          State oversight . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 9


          Lack of information on supply and availability . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 9



RECOMMENDATIONS . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 11




APPENDICES

          A: Safety and quality problems . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 13


          B: Comments from the Department of Health and Human Services . . . . . . . . . . . . . . . 14


          C: Endnotes . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 15





Oversight of Tissue Banking                                                                                          OEI-01-00-00441
                              INTRODUCTION

PURPOSE
        To provide a profile of the current external oversight system for tissue banking, and to
        identify limitations in that system.

BACKGROUND
Transplantation of Human Tissue
        Human tissue is an important resource for medical treatment. Physicians and dentists use
        cadaveric human tissue for a variety of medical purposes. Donated skin can meet critical
        needs in healing burn victims and in reconstructive surgery. Donated bone can be
        implanted to replace cancerous bone; it can be used in knee and hip replacements and for
        spinal surgery; and it can be processed into powder for use in dental surgery. Donated
        heart valves can replace defective valves in young children, saving their lives.

        The exact number of tissue donors in this country is not known. It is clear, though, that
        the numbers are increasing. In 1999, more than 20,000 donors provided cadaveric tissue,
        up from perhaps 6,000 donors in 1994.

Initial Concerns about Disease Transmission
        Human tissue is capable of transmitting disease. Tissue from one donor can be implanted
        into many different people. Thus, if a donor has a communicable disease, using that tissue
        places multiple recipients at risk. It is estimated that tissue banks distributed more than
        750,000 allografts for transplantation in 1999.

        In the early 1990's two events occurred that raised concerns about disease transmission
        through tissue donation. First, HIV was transmitted to a number of recipients of organs
        and unprocessed tissues from an infected donor. Second, investigators from the Food and
        Drug Administration (FDA) found instances in which domestic suppliers were accepting
        foreign tissue that had not been adequately tested or screened; in one of these cases the
        FDA found tissue that tested positive for Hepatitis B.

        Since these initial two cases, no other cases have been identified. However, without
        proper screening and testing, these problems could reemerge. As we discuss below, FDA
        continues to uncover deficiencies in the course of its inspections of tissue banks.

Limited Federal Oversight of Tissue Banking
        Tissue banks procure, process, store, and distribute human tissue. Federal regulation of
        tissue banking focuses on donor screening and testing to prevent the introduction,
        transmission, and spread of HIV-1 and -2, and Hepatitis B and C.1 By way of contrast,
        organ procurement organizations (OPOs) must meet statutory requirements about their
        organization and operation; they are regulated and certified by the Health Care Financing

Oversight of Tissue Banking                      1                                  OEI-01-00-00441
        Administration. Furthermore, the procurement and allocation of human organs are
        governed by Federal statute and are administered through a contract with the Health
        Resources and Services Administration (HRSA). Likewise, legislation authorizes the
        operation of a national bone marrow donor registry, also administered under contract with
        HRSA.

Recent Concerns about Tissue Banking
        Several press reports in the Spring of 2000, appearing in the Orange County Register and
        the Chicago Tribune, raised concerns about tissue banking, including the extent to which
        the performance of the industry was monitored. Several members of Congress expressed
        their concerns to the Secretary of Health and Human Services. The Secretary asked the
        Office of Inspector General to examine two aspects of the tissue banking industry:
        consent for donation and the external oversight structure. This report responds to the
        second of those requests. Our companion report, Informed Consent in Tissue Donation:
        Expectations and Reality (OEI-01-00-00440), addresses consent for donation.

This Inquiry
        This report provides a profile of the oversight structure for tissue banks. We also identify
        limitations of current oversight efforts and steps that could be taken to address those
        limitations.

        Throughout this report, we use the term “tissue banks” to refer to entities involved in
        procuring, processing, storing, and distributing tissue. We use the term “tissue” to refer to
        skin, heart valves, and musculoskeletal tissue such as bone, cartilage, ligaments, and
        tendons. Our report does not address eyes and reproductive tissue.

METHODOLOGY
        Our inquiry is based on data analysis, document reviews, an observational visit, and
        interviews. We analyzed data from FDA’s Program Operations Data System which tracks
        information about FDA inspection activity across the nation. Our analysis examines this
        data from December 15, 1993 (following the issuance of the interim rule on tissue
        banking) through the end of Fiscal Year 2000.2 Our analysis includes only tissue banks
        involved in procuring, processing, storing, and distributing tissues such as skin, heart
        valves, and musculoskeletal tissue. We do not include establishments that are involved in
        eye banking, or hospitals and laboratories inspected under the FDA tissue compliance
        program.3

        We also reviewed pertinent FDA documents and inspection reports from the central office
        and from 3 of the 20 FDA district offices. We conducted interviews with FDA staff at
        both the central and district offices.

        We reviewed AATB standards and accompanied an inspector on an accreditation visit to a
        tissue bank. We reviewed documents and data from the AATB and interviewed officials
        and staff from the association. We conducted interviews with senior staff from


Oversight of Tissue Banking                       2                                  OEI-01-00-00441
        30 organizations involved in obtaining, processing, and distributing human tissue.

        We also interviewed officials and reviewed data, statutes, and regulations from New York,
        Florida, California, Georgia, and Maryland.

        We conducted this study in accordance with the Quality Standards for Inspections issued
        by the President’s Council on Integrity and Efficiency.




Oversight of Tissue Banking                      3                                  OEI-01-00-00441
                PROFILE OF OVERSIGHT
                 FOR TISSUE BANKING
        Oversight of tissue banking occurs at three levels. At the Federal level, the Food and
        Drug Administration (FDA) has primary responsibility to set and enforce standards to
        ensure the safety of tissue. Within the industry, the American Association of Tissue Banks
        (AATB) operates a voluntary accreditation program. At the State level, two States —
        New York and Florida — license and inspect tissue banks. Below we provide a
        description of each of these activities.

Food and Drug Administration
        FDA’s regulation of tissue dates to December 1993. Operating under its public health
        authority, the agency issued an interim final regulation in response to evidence about
        transmission of HIV to recipients of organs and unprocessed tissues from an infected
        donor.4 In a second case, FDA inspectors found imported foreign tissue that tested
        positive for Hepatitis B. In July 1997, the FDA reissued this rule with minor
        modifications, and the new rule became effective January 26, 1998.5

        The FDA requires that tissue banks must ensure that donor screening and infectious
        disease testing are performed for HIV -1 and -2 and for Hepatitis B and C. Tissue banks
        must maintain and make available to FDA inspectors records that document screening and
        testing for each donor of human tissue. FDA has the authority to order the retention,
        recall, and destruction of tissue that doesn’t comply with these requirements.

        FDA has conducted 188 inspections of 118 tissue banks since 1993. In more than half of
        these inspections, FDA inspectors found deficiencies that needed correction. FDA issued
        26 notices of official action — the most serious level of deficiency, in which the agency
        requires the bank to take corrective actions. In 72 other inspections, FDA issued a notice
        recommending that the bank take voluntary actions to meet the requirements.6

        FDA is in the process of expanding its oversight of tissue banking. Regulations to expand
        that authority, however, have not yet been finalized. The components of expanded FDA
        oversight strategy comprise three regulations:

C	      Registration of all tissue banks. This proposed regulation would require tissue banks to
        register with FDA and list their products. The proposed regulation would apply to
        establishments engaged in “recovery, screening, testing, processing, storage, labeling,
        packaging, or distribution of human cellular or tissue-based products.”7

C	      Expanded screening and testing for communicable diseases. This proposed regulation
        would require donor screening and testing for diseases such as Human T-lymphotropic
        viruses (HTLV) and syphilis, and donor screening for Creutzfeld-Jakob Disease (CJD).8



Oversight of Tissue Banking                      4                                 OEI-01-00-00441
C	      Standards for “good tissue practices.” These standards, akin to good manufacturing
        practices required of medical device pharmaceutical manufacturers, would cover areas
        such as proper handling, processing, and tracking of tissue.9

American Association of Tissue Banks
        AATB currently accredits 58 cadaveric tissue banks.10 Tissue banks perform a variety of
        functions. Of these 58 banks, 54 retrieve tissue, 34 process tissue, and 56 store and
        distribute tissue; 51 of these banks retrieve musculoskeletal tissues, 37 retrieve
        cardiovascular tissues, and 20 retrieve skin. Five banks are for-profit (three tissue
        processors, one tissue distributor, and one retrieval agency). The other 53 accredited
        banks are non-profit organizations. Eleven banks are OPOs. The number of donors
        recovered by accredited banks has grown substantially, from 6,132 donors in 1994 to
        17,725 donors in 1999.

        AATB’s standards are consistent with, but go beyond, FDA's requirements. For example,
        in addition to screening and testing for HIV and hepatitis, AATB requires that tissue
        banks test for HTLV and screen for CJD. The standards also address operational and
        organizational issues. These areas include qualifications of tissue bank personnel and
        technical issues, such as safety practices, equipment testing, facilities, labeling, and quality
        assurance.

        Accreditation involves a review of a bank’s written procedures and an on-site inspection.
        Since 1997, AATB has used contract inspectors to conduct accreditation visits.11 Since
        1997, an average of five new banks have sought accreditation each year.

        A bank receives one of four recommendations. Banks that show no deficiencies receive
        immediate accreditation. A bank with minor deficiencies receives Level A accreditation,
        meaning that it must submit to AATB a written plan to correct the deficiencies found
        during the inspection. A bank with more serious deficiencies receives Level B
        accreditation, which means that it must take corrective action and be reviewed again
        through an on-site inspection. Finally, a bank could be denied accreditation outright.
        Accreditation is given for a three-year period, at the end of which the bank is subject to
        another review, including an on-site inspection. Since 1986, AATB has accredited a total
        of 98 tissue banks; 19 banks have been denied accreditation.12


State Regulation
        New York and Florida are the only two States that operate oversight programs requiring
        that tissue banks be licensed and inspected. A few States, including California, Georgia,
        and Maryland, require that banks be licensed, either as tissue banks or as laboratories.

        New York’s licensure law dates to 1990.13 Currently, the State licenses 13 allogeneic
        tissue banks located in New York and 36 located out-of-State.14 New York inspects both
        in-State and out-of-State banks prior to initial licensure and every two years thereafter.



Oversight of Tissue Banking                        5                                    OEI-01-00-00441
        Banks are licensed along two dimensions. One is a functional dimension: whether the
        bank procures or processes tissue. The second dimension relates to the type of tissue
        which the bank works with — cardiovascular, musculoskeletal, or skin. A bank may be
        licensed for any or all tissues and functions. At present, 29 banks are licensed to procure
        and 9 to process cardiovascular tissue; 39 to procure and 20 to process musculoskeletal
        tissue; and 33 to procure and 19 to process skin.

        Licensure requires an initial application and on-site survey. Banks do not pay a fee for
        licensure. Tissue banks must disclose ownership and key staff. Banks must update this
        information annually and report statistics on procurement, processing, and distribution.

        In addition to meeting FDA requirements to screen and test for HIV and hepatitis, New
        York requires banks to test for HTLV and syphilis. New York also requires tissue banks
        to meet specific standards for each type of tissue — musculoskeletal, cardiovascular, and
        skin — that the bank procures, processes, or stores. These standards relate to donor
        qualifications, tissue retrieval processes, laboratory testing, and disposal of unused tissue.

        Banks must report any adverse incidents to the State. Since 1991, the State has received
        8 reports from cardiovascular, 13 from musculoskeletal, and 6 from skin banks.

        Florida’s law was enacted in 199215 at the urging of the State’s OPO, tissue banking, and
        eye banking community. Florida currently licenses 20 cadaveric tissue banks; 9 are
        located in Florida and 11 are based in other States. Another 2 banks have submitted
        applications that are now under review. The State inspects both in-State and out-of-State
        tissue banks prior to initial licensure and every two years thereafter.

        Florida requires tissue banks to pay an initial application fee of $1,000 and an annual fee
        of 0.25 percent of gross Florida revenues, with a minimum of $1,000 and a maximum of
        $35,000. The fees go to a State trust fund used for operating the licensure program, the
        State donation advisory committee, a donor registry, and donor education programs.

        Applicants must disclose the bank’s ownership, as well as information on equipment and
        donor selection and testing criteria. Florida requires tissue banks to comply with current
        FDA regulations. The surveying standards also address tissue tracking practices,
        emergency procedures, equipment standards, procurement processes, conflict of interest
        policies, community involvement, and labeling standards.

        Florida requires tissue banks to report within 24 hours adverse events that could affect
        tissue recipients’ medical conditions. Only three such incidents have been reported in the
        program’s history.




Oversight of Tissue Banking                       6                                    OEI-01-00-00441
          LIMITATIONS IN OVERSIGHT
               OF TISSUE BANKS
        Today’s tissue banking system is complex and rapidly changing. Tissue is processed into
        new forms and products that are put to a variety of important medical uses. New
        technologies using human tissue emerge constantly. No new cases of disease transmission
        through human tissue have been identified since 1993. This absence points to significant
        strengths and accomplishments in the current oversight system which has focused on
        preventing the spread of communicable disease.16

        However, continued vigilance and monitoring are needed: FDA inspectors have found
        deficiencies in tissue banks’ screening and testing practices. Banks have failed to meet
        basic standards of the AATB and been denied accreditation. States have received
        notification of adverse incidents involving tissue. Appendix A describes some safety
        problems that FDA inspectors have identified during inspection visits and adverse events
        that have been reported to the State agencies. These problems include distribution of
        tissue from donors who tested reactive for hepatitis, bacterial contamination of tissue, and
        repeat testing of donors as a way of qualifying their tissue as suitable for transplantation.

        In the course of this limited inquiry, we identified some important vulnerabilities and
        limitations in the current tissue banking oversight structure. Rapid developments and
        innovation in the tissue banking field mean that traditional oversight methods have not
        kept pace with growth and changes in the industry. Under these circumstances, thoughtful
        consideration needs to be given to the nature of any oversight approach.

        Below, we outline limitations and vulnerabilities in the current approaches, and we offer a
        combination of options that, taken singularly or in combination, could provide a way of
        enhancing oversight of the tissue banking field.

FDA oversight
        Some tissue banks have never been inspected by FDA.
        We developed a list of 154 tissue banks, based on data from three FDA district offices,
        AATB, Florida, and New York. We found that FDA had never inspected 36 (23 percent)
        of these banks. In addition to the 154 banks we identified, there are likely others that
        operate in States without licensing programs.17

        FDA has indicated that regulation of tissue banks is an unfunded mandate. In order to
        carry out these inspections, the agency has had to borrow resources from other programs,
        such as blood and plasma.

        FDA lacks a prescribed cycle for reinspection of tissue banks.
        FDA staff told us that their goal is to inspect tissue banks once every two years, but there
        is no required minimum cycle for these inspections.18 Of 118 tissue banks that the agency

Oversight of Tissue Banking                       7                                   OEI-01-00-00441
        has inspected, 68 have been inspected only once since the FDA began its tissue program in
        late 1993.

        FDA’s compliance program acknowledges that there are insufficient resources to
        accomplish biennial inspections of all banks. As a consequence, the agency has established
        a priority list for followup inspections. The first priority for the program is reinspection of
        firms whose last inspection was classified as Official Action Indicated. This classification
        is the most serious level of deficiency, in which the agency requires the bank to take
        corrective actions.19

        The number and location of tissue banks are unknown.
        Information is lacking about the number of tissue banks in operation, and the types of
        tissue products that they produce. This lack of information limits the confidence with
        which assurances can be made that the supply of tissue is safe. These “unknown” tissue
        banks are likely to be new entities that may be in the early stages of operation. This
        situation does not inspire confidence that these banks are meeting basic standards of
        safety.

        The FDA has issued a proposed regulation20 calling for registration of tissue banks and
        listing of their products. Such a regulation would address directly this current limitation in
        knowledge about tissue banking.

        The current scope of FDA’s regulations is limited.

        The agency’s current regulations focus on preventing transmission of communicable
        disease. The regulations require tissue banks to conduct some donor screening and
        testing, to prepare and follow written procedures, and to maintain records. The
        regulations provide for FDA inspection of tissue banks, quarantine of imported tissue, and
        retention, recall, and destruction of tissue that doesn’t comply with the regulations.

        The current regulations, however, do not monitor other important aspects of tissue bank
        quality. FDA has proposed a regulation expanding donor suitability and testing
        requirements, and is developing a regulation on good tissue practices, akin to good
        manufacturing practices required of medical device pharmaceutical manufacturers. Until
        that regulation is finalized, tissue banks have limited requirements for quality and handling
        of tissue if they are not accredited by AATB or licensed by New York or Florida.

        We were unable to document the extent to which banks that are neither AATB-accredited
        nor licensed in New York or Florida are involved in recovering tissue. The number,
        however, is likely to be substantial. For example, of the 154 tissue banks we identified, 67
        are neither accredited by AATB nor licensed by New York or Florida.




Oversight of Tissue Banking                       8                                    OEI-01-00-00441
Private accreditation
        Many banks do not seek AATB accreditation.
        At present, 58 tissue banks have AATB accreditation. Yet we identified another 90 banks
        that are not accredited. These banks are under no obligation to meet the standards or
        policies set by the AATB.21

        Unaccredited banks include both large and small operations. For example, the country’s
        largest processor of heart valves has never sought accreditation. Some OPOs that operate
        tissue banks are not accredited by AATB. Other unaccredited banks are small entities in
        the early stages of operations and do not yet feel that they can comply with the standards.

        For many tissue banks there is no real incentive to seek accreditation. Hospitals and
        physicians regularly purchase tissue from unaccredited banks. The cost of accreditation
        may present a major barrier for smaller banks. For other banks, already subject to
        inspection by FDA and State authorities, a third inspection may seem burdensome.22

        A number of steps could be taken to encourage a role for private accreditation of tissue
        banks. For example, FDA could provide technical advice and information that could be
        used in developing standards. FDA could also consider in what areas, if any, the agency
        could accept accreditation as showing compliance with FDA inspection regulations. To
        implement such a change, legislation would likely be needed.

State oversight

        Only two States inspect tissue banks.

        In many ways, these inspections go beyond FDA requirements. The State initiatives
        provide an important aspect of quality assurance. Yet the inspections are limited to banks
        that conduct business in Florida and New York. Those banks may be small, local entities
        that operate within each State, or they may be large national operations that are based
        elsewhere and that either process or distribute tissue in New York or Florida. For
        example, 15 of the 20 banks licensed in Florida also are licensed in New York, and 14 are
        accredited by the AATB; 29 of the banks licensed in New York have AATB accreditation.
        A few States, including California, Georgia, and Maryland, require tissue banks to be
        licensed by the State, either as tissue banks or as laboratories.

        Other States could give consideration as to whether they wish to regulate tissue banking,
        and, if so, how they would coordinate with other entities to limit redundancy and
        regulatory burden.

Information on supply and availability of tissue
        There is no national system for tracking the availability of tissue and where there may be a
        shortage. Each bank maintains its own inventory and distribution records. Concerns have
        been raised that some tissues, such as skin, may be in short supply, and that donated


Oversight of Tissue Banking                      9                                   OEI-01-00-00441
        skin is processed into products that may be used for procedures that are not medically
        indicated. It is not clear how much tissue goes for such cosmetic uses; because physicians
        and patients determine how these products actually are used, tissue banks that
        manufacture them do not have that information.23

        Recent concerns about shortages of skin have led to two surveys related to its availability.
        A survey of burn centers, conducted by the American Burn Association (ABA), found that
        32 percent of respondents had delayed or altered treatment over the past year, and about
        half reported that they had difficulty obtaining allograft skin. The AATB survey found
        that banks recovered skin from over 6,000 donors in 1999. It also found that banks
        generally can meet the local need for skin, but when skin is requested by facilities outside
        their local area, meeting those requests is more problematic. Only 3 of 20 banks supplying
        cryo-preserved skin, and only 3 of 12 banks supplying fresh skin, can always meet
        requests from outside of their local area.

        These initial surveys suggest that further research may be warranted to examine the extent
        and implications of a potential shortage of tissues. They provide the first systematic
        information about tissue supply and availability. The two associations deserve great credit
        for collecting and publicizing these data. However, there are limitations related to the
        source and specificity of information obtained. For example, the AATB respondents were
        accredited banks only; the ABA data do not allow one to determine if any patient actually
        was unable to obtain skin needed in a surgical procedure. These shortcomings and the
        limitations of an initial survey can easily be overcome in future refinements.




Oversight of Tissue Banking                     10                                  OEI-01-00-00441
                        RECOMMENDATIONS

The Food and Drug Administration should expedite the publication of its
regulatory agenda that requires registration of tissue banks, enhanced donor
suitability screening and testing, and the use of good tissue practices.

        The FDA has been the lead agency within the Department of Health and Human Services
        for oversight of tissue banking. The FDA’s current regulatory program focuses on
        preventing transmission of HIV and hepatitis by requiring that tissue banks test and screen
        donors to detect these conditions.

        FDA has proposed and is refining three regulations that will enhance oversight of tissue
        banking. That regulatory agenda would require registration of all tissue banks, expanded
        screening and testing, and use of good tissue practices, akin to good manufacturing
        practices.

        This proposed agenda is important for at least two reasons. First, at present FDA is able
        to inspect only those banks that it knows about. Requiring registration of all tissue banks
        would ensure that the agency has a comprehensive list of those banks that are in operation,
        as a first step in assuring their compliance with standards.

        Second, many tissue banks are neither accredited by the American Association of Tissue
        Banks nor licensed and inspected by New York or Florida. Those banks that are not
        accredited or inspected do not have to meet any standards beyond the current FDA
        minimum requirements that they screen and test tissue donors for HIV and hepatitis.

Within its existing regulatory authority, FDA should take two steps to enhance
oversight of tissue banking:

        FDA should set a realistic, yet aggressive, date by which it would complete an initial
        inspection of all tissue banks.

        As we show above, more than one of every five tissue banks has never been inspected. As
        we also note, the agency has indicated that regulation of tissue banks is an unfunded
        mandate, and that it has had to borrow resources from other programs to carry out current
        inspections. Nevertheless, we believe that it is important to establish a baseline of
        information. Such information would provide a minimum level of assurance that tissue
        banks are meeting basic public health and safety standards to prevent transmission of
        communicable disease.

        FDA should determine an appropriate minimum cycle for tissue bank inspections.

        A minimum cycle for inspections would help ensure that tissue banks are meeting
        standards on an ongoing basis. As we note above, FDA has established a priority list for

Oversight of Tissue Banking                     11                                  OEI-01-00-00441
        followup inspections to maximize available resources. We believe, however, that some
        minimum cycle, which the agency would determine, is important to ensure that tissue
        banks are subject to ongoing oversight.

FDA should work with States and with professional associations that have
inspection and accreditation programs to determine in what areas, if any,
oversight activities could be coordinated.

        We recognize that resource constraints can put pressure on an agency’s capacity to
        conduct inspections and reviews of tissue banks. In addition, we recognize that multiple
        inspection visits can place a strain on a tissue bank’s operations. We believe that FDA,
        the industry, and the States with regulatory programs could benefit from examining where
        standards are in agreement, as well as places in which standards might conflict.

        Following such an examination, determination could be made of whether formal
        partnership or other arrangements would be appropriate to maximize the effectiveness of
        the oversight process. Such arrangements could require that legislation be enacted.


COMMENTS ON THE REPORT
        We received comments on a draft of this report from the Department of Health and
        Human Services. They are supportive of our findings and recommendations. The full text
        is included in Appendix B.


        Our work in tissue banking continues. We will maintain an active watch on how the tissue
        banking community responds to the concerns that we have raised.




Oversight of Tissue Banking                    12                                 OEI-01-00-00441
                                                                                      APPENDIX A


                         Examples of Safety and Quality Problems
                                Found in Tissue Banking
      C	 Routine acceptance of tissue for further manufacturing without accompanying records
          from procurement agency documenting that donor’s serum specimen had been tested and
          found negative.

      C	 Confirmatory testing repeated until negative result was obtained for Hepatitis B surface
         antigen and Hepatitis C antibody, as a means of potentially qualifying donors as suitable
         for transplantation.

      C	 Acceptance of foreign tissue with donor records not translated into English and without
         documented medical/ social histories.

      C	 Lack of adequate controls to assure product sterility. Lack of standard operating
         procedures to prevent cross contamination of human tissue during manufacture.

      C	 Failure to assure tissue was quarantined until all infectious disease testing and donor
         screening reviewed by a responsible official, and donor found to be free of risk factors for/
         clinical evidence of Hepatitis B and C or HIV-1 and -2.

      C	 Errors in calculating a donor's serodilution status. In retrospect, tissue bank determined
         that the tissue should not have been accepted because of indicators recorded on medical/
         social history.

      C	 Tissue bank notified that a donor had been incarcerated in the year prior to his death, nine
         months after tissue was tested, processed, and distributed.

      C	 Distribution and implantation of soft tissue grafts from a single donor with possible
         bacterial contamination. The grafts came from a donor with no evidence of risk for HIV
         or hepatitis (confirmed through serological testing). Contamination appears to have
         occurred either at recovery or during processing.

      C	 Positive test for the Hepatitis C antibody found by distributor, even though others who had
         handled the tissue had found negative test results.

      C   Tissue processing errors, such as use of expired processing reagents.

      C	 Release and distribution of tissue from donors who tested repeatedly reactive for Hepatitis
         B surface antigen.

      C	 Improper donor testing by the tissue bank’s contract lab for HIV, Hepatitis C antibody,
         and Hepatitis B surface antigen.

      C   Culture-positive tissue or tissue lots distributed, then recalled.

      C   Adverse reaction in a heart valve recipient.

                                                 From actual problems found by FDA inspectors and
                                                                    adverse event reports to States



Oversight of Tissue Banking                           13                                    OEI-01-00-00441
                   Comments from the                APPENDIX B
          Department of Health and Human Services




Oversight of Tissue Banking        14                 OEI-01-00-00441
                                                                               APPENDIX C


                                           Endnotes

1. The FDA issued these regulations under the legal authority of section 361 of the Public Health
Service Act. This section authorizes the Secretary to make and enforce regulations judged
necessary to prevent the introduction, transmission, or spread of communicable diseases.

2. Since we obtained the FY 2000 data from FDA, seven additional inspections have been
entered into the PODS data system. Because we cannot tell whether these are tissue banks as we
define them here, or eye banks or some other type of establishment, we do not include these seven
banks in our analysis.

3. When eye banks, hospitals, and other establishments falling under the FDA tissue establishment
compliance program are included, the total number of inspections rises to 363 inspections of 251
establishments. These additional establishments include 79 eye banks,       29 hospitals, and 25
establishments, such as laboratories, that we classified as other entities.

4. 21 C.F.R., Parts 16 and 1270, added at 58 Fed. Reg. 65,514, December 14, 1993.

5. 21 C.F.R., Parts 16 and 1270, added at 62 Fed. Reg. 40,429, July 29, 1997.

6. Our analysis includes only those banks we identified as banks involved with procuring,
processing, storing, and distributing skin, heart valves, and musculoskeletal tissue.

7. Proposed regulation at 63 Fed. Reg. 26,744, May 14, 1998.

8. Proposed regulation at 64 Fed. Reg. 52,696, September 30, 1999.

9. This proposed regulation has not yet been published.

10. The total number of AATB-accredited banks is actually 71; 11 of these are reproductive
tissue banks, and 2 are based in Canada. In our analysis we use only cadaveric tissue banks
located in the United States.

11. When AATB began inspecting banks in 1986, the association relied on volunteer staff from
member banks to conduct inspections. The accreditation inspectors working with AATB since
1997 are former staff from FDA or the National Institutes of Health, who have experience in
facility inspection. Using outside inspectors has helped to formalize the process and make it more
professional. The contract inspectors are trained in audit and evaluation methodologies, and they
have had years of experience in inspecting facilities. A second important difference is that the
professional inspectors do not have any relationships with the banks they are inspecting; thus, they
may be more objective in their evaluation.




Oversight of Tissue Banking                     15                                  OEI-01-00-00441
                                                                               APPENDIX C



12. Of the 19 banks, 8 were denied accreditation following Level B inspections. Five more failed
to complete the process which requires a one-year waiting period after a bank receives a Level B
accreditation. Inspections of four banks were aborted because of obvious non-compliance, and
the inspections were not completed. Two banks would have been recommended for denial, but
because current accreditation had expired, they withdrew from the process.

13. New York Public Health Law, Article 43-B, Sections 4364-4366; New York Code of Rules
and Regulations, Title 10, Part 52. New York also licenses other types of tissue banks, such as
hematopoietic progenitor cell banks, eye banks, semen banks, and tissue transplantation facilities.

14. New York actually licenses 60 tissue banks for procuring, processing, or storing skin,
musculoskeletal, and cardiovascular tissue. Of these, 7 New York banks and 4 out-of-State banks
procure or process autogeneic bone or infant foreskin, which are non-cadaveric tissues.

15. Florida Statutes, Title 29, Chapter 381.6021-381.6025; Florida Administrative Code, 59A
(Health Facility and Agency Licensing), Chapter 59A-1 Certification of Organ Procurement
Organizations, Tissue Banks, and Eye Banks.

16. It is important to recognize, however, that there are no requirements to track recipients of
tissue. It is possible that cases of disease transmission could have occurred, but have never been
reported to the tissue bank or to any government authorities.

17. The three FDA field offices are located in Dallas, Los Angeles, and Buffalo. We recognize
that the number of banks we identify here (154) differs from the 148 banks we discuss below in
the potential AATB universe. FDA can inspect any individual establishment involved in tissue
banking; AATB accreditation applies to an entire organization. Thus, for example, a tissue bank
that has a main office and two satellite offices would have one accreditation from AATB — but
FDA inspections could be conducted at each of the three different offices.

18. In contrast, blood banks, mammography facilities, and medical device firms must be inspected
every two years.

19. Food and Drug Administration, “Compliance Program Guidance Manual — Compliance
Program 7341.002 - Inspection of Tissue Establishments,” November 3, 1999, part II, page 4.
The priorities for inspection of tissue banks are:
       1. Firms whose last inspection was classified OAI (official action indicated).
       2. Firms about which FDA has received surveillance information indicating there is a
       potential violation of 21 CFR 1270.
       3. Laboratories that perform required viral marker testing for tissue banks.
       4. Firms which have never been inspected and which are known to lack accreditation by a
       standard setting organization such as the American Association of Tissue Banks.
       5. Firms which have never been inspected.
       6. Firms whose last inspection was classified as VAI (voluntary action indicated).

Oversight of Tissue Banking                     16                                  OEI-01-00-00441
                                                                             APPENDIX C

20. 63 Fed. Reg. 26,744, May 14, 1998.

21. We recognize that the number of banks we identify here (148) differs from the 154 banks we
discuss above in the potential FDA universe. FDA can inspect any individual establishment
involved in tissue banking; AATB accreditation applies to an entire organization. Thus, for
example, a tissue bank that has a main office and two satellite offices would have one
accreditation from AATB — but FDA inspections could be conducted at each of the three
different offices.

22. AATB accreditation contrasts sharply with the situation for hospitals, where accreditation by
the Joint Commission on Accreditation of Health Care Organizations (JCAHO) carries a definite
benefit. Hospitals that receive accreditation are deemed to meet Federal requirements for
certification as Medicare providers. Thus, hospitals have a very strong incentive to achieve that
status.

23. The American Medical Association’s policy provides a useful framework for considering the
differences between cosmetic and reconstructive surgery. That policy states that “cosmetic
surgery is performed to reshape normal structures of the body in order to improve the patient's
appearance and self-esteem. Reconstructive surgery is performed on abnormal structures of the
body, caused by congenital defects, developmental abnormalities, trauma, infection, tumors or
disease. It is generally performed to improve function, but may also be done to approximate a
normal appearance.” (Policy H-475.992)




Oversight of Tissue Banking                    17                                 OEI-01-00-00441
